<html>
<title> - CRISIS IN KYRGYZSTAN: FUEL, CONTRACTS, AND REVOLUTION ALONG THE AFGHAN SUPPLY CHAIN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
CRISIS IN KYRGYZSTAN: FUEL, CONTRACTS, AND REVOLUTION ALONG THE AFGHAN 
                              SUPPLY CHAIN

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2010

                               __________

                           Serial No. 111-150

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                              __________



                        U.S. GOVERNMENT PRINTING OFFICE
65-551 PDF                    WASHINGTON : 2011
______________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  








              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     DAN BURTON, Indiana
CHRIS VAN HOLLEN, Maryland           JOHN L. MICA, Florida
PAUL W. HODES, New Hampshire         JOHN J. DUNCAN, Jr., Tennessee
CHRISTOPHER S. MURPHY, Connecticut   MICHAEL R. TURNER, Ohio
PETER WELCH, Vermont                 LYNN A. WESTMORELAND, Georgia
BILL FOSTER, Illinois                PATRICK T. McHENRY, North Carolina
STEVE DRIEHAUS, Ohio                 JIM JORDAN, Ohio
STEPHEN F. LYNCH, Massachusetts      JEFF FORTENBERRY, Nebraska
MIKE QUIGLEY, Illinois               BLAINE LUETKEMEYER, Missouri
JUDY CHU, California
                     Andrew Wright, Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2010...................................     1
Statement of:
    Huskey, Eugene, professor, Stetson University; Ambassador 
      Baktybek Abdrisaev, lecturer, Utah Valley University, and 
      former Kyrgyz Ambassador to the United States 1996-2005; 
      Alexander Cooley, professor, Barnard College at Columbia 
      University; Scott Horton, professor, Columbia Law School, 
      and Contributing Editor, Harper's Weekly; and Sam Patten, 
      senior program manager, Eurasia, Freedom House.............     7
        Abdrisaev, Ambassador Baktybek...........................    19
        Cooley, Alexander........................................    32
        Horton, Scott............................................    43
        Huskey, Eugene...........................................     7
        Patten, Sam..............................................    56
Letters, statements, etc., submitted for the record by:
    Abdrisaev, Ambassador Baktybek, lecturer, Utah Valley 
      University, and former Kyrgyz Ambassador to the United 
      States 1996-2005, prepared statement of....................    21
    Cooley, Alexander, professor, Barnard College at Columbia 
      University, prepared statement of..........................    34
    Horton, Scott, professor, Columbia Law School, and 
      Contributing Editor, Harper's Weekly, prepared statement of    45
    Huskey, Eugene, professor, Stetson University, prepared 
      statement of...............................................     9
    Patten, Sam, senior program manager, Eurasia, Freedom House, 
      prepared statement of......................................    58


CRISIS IN KYRGYZSTAN: FUEL, CONTRACTS, AND REVOLUTION ALONG THE AFGHAN 
                              SUPPLY CHAIN

                              ----------                              


                        THURSDAY, APRIL 22, 2010

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Welch, Driehaus, Quigley, 
Flake, Duncan, Turner, and Fortenberry.
    Staff present: Andy Wright, staff director; Boris Maguire, 
clerk; Scott Lindsay, counsel; LaToya King, fellow; Aaron 
Blacksberg and Bronwen De Sena, interns; Adam Hodge, deputy CD; 
Laura Kieler, legislative correspondent for Representative 
Tierney; Adam Fromm, minority chief clerk and Member liaison, 
Stephanie Genco, minority press secretary and communication 
liaison; Tom Alexander, minority senior counsel; and 
Christopher Bright, minority senior professional staff member.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs, the hearing entitled, 
``Crisis in Kyrgyzstan: Fuel, Contracts, and Revolution Along 
the Afghan Supply Chain,'' will come to order.
    I ask unanimous consent that only the chairman and ranking 
member of the subcommittee be allowed to make opening 
statements. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days so that all members of the 
subcommittee be allowed to submit a written statement for the 
record. Without objection, that too is so ordered.
    So good morning, everybody, and particularly our witnesses. 
I want to thank you again for being here today and helping to 
enlighten us on a region of the world that many Americans have 
not had an opportunity to study in depth.
    Today's hearing will explore the recent revolution in 
Kyrgyzstan, the causes of the political turmoil there, and 
Kyrgyzstan's critical role in the supply chain for the United 
States and NATO's war effort in Afghanistan, although, 
Ambassador, you make the good point that cannot be the only and 
the sole focus of our relationship.
    In addition, we will examine the political and geopolitical 
significance of allegations of corruption in connection with 
U.S. fuel contracts at the Manas Air Base in Kyrgyzstan. That 
is, of course, a critical transit and re-supply hub for 
Operation Enduring Freedom.
    Last Monday, the subcommittee announced a wide-ranging 
investigation into allegations that the contractors who supply 
fuel to the Manas Air Base had significant financial dealings 
with the family of deposed President Kurmanbek Bakiyev. I 
understand from press reports that the interim government in 
Kyrgyzstan has announced its own investigation into allegations 
of corruption in the Bakiyev regime, including the Manas fuel 
contracts.
    Of course, allegations of corrupt practices among Kyrgyz 
public officials are an internal Kyrgyz matter. However, some 
of the present allegations raise serious questions about the 
Department of Defense's management and oversight of contractors 
along the Afghan supply chain. Today's hearing will not answer 
the who, what, and where of the contractual dealings at Manas. 
It will also not test the veracity of allegations that are 
swirling in Central Asia. These questions will be answered in 
due course by the subcommittee's ongoing investigation.
    Rather, the purpose of today's hearing is to look more 
broadly at the recent revolution in Kyrgyzstan, the Kyrgyz-
American relations, the history of the U.S. presence at Manas, 
and the significance of the allegations of corruption at the 
base as a driver of the revolution.
    Since 2001, Kyrgyzstan has been a critical ally of the 
United States in support of our ongoing military efforts in 
Afghanistan. The Manas Air Base is a crucial hub for U.S. 
troops going in and out of Afghanistan, as well as a refueling 
station for the United States and NATO aircraft operating in 
the region. Not unexpectedly, Kyrgyzstan's willingness to host 
a U.S. air base on former Soviet soil has generated some 
domestic controversy in Bishkek, and even more controversy in 
Russia, which looks suspiciously at the United States' 
influence in Central Asia.
    As the United States has increased its presence in 
Afghanistan, our dependence on the Manas Air Base and the 
Northern Distribution Network--that, of course, is the supply 
chain to Afghanistan through Central Asia--has also increased. 
U.S. dependence is particularly acute at Manas; in March 2010 
alone, 50,000 U.S. troops transited in and out of Afghanistan 
through this base.
    So let's be honest. At many times throughout our history, 
the United States has closely dealt with unsavory regimes in 
order to achieve more pressing policy or strategic objectives. 
That is realism in a nutshell. But the United States also 
prides itself on a more enlightened view of our role in the 
world and our long-term interests in universal respect for 
democracy, the rule of law, and human rights.
    Some suggest that the United States has allowed strategic 
and logistical expedience in Kyrgyzstan to become a lasting 
embrace of two corrupt and authoritarian regimes. Regardless of 
U.S. intent, we are left with the fact that both President 
Akayev and President Bakiyev were forcefully ousted from office 
amid widespread public perceptions that the United States had 
supported the regimes' repression and fueled--I say that 
without any pun intended--their corrosive corruption.
    Meanwhile, the leaders of Kyrgyzstan's political 
opposition, the men and women who bravely confronted President 
Bakiyev for his corruption and oppression, were left in the 
lurch. Today, many of those opposition leaders are in power 
and, I expect, the United States will have to work hard to 
restore our credibility in their eyes, beginning with 
transparency regarding U.S. fuel contracts at Manas. I wish 
them the good judgment to transform the art of Kyrgyz 
governance in a manner deserving of the Kyrgyz people.
    Ultimately, it is my belief that only transparency will 
help Kyrgyz-American relations move forward on a new page. And 
toward that end, I look forward to our witnesses' thoughts on 
the future of this important alliance.
    With that, I would like to yield to Mr. Flake for his 
opening remarks.
    Mr. Flake. I thank the chairman and thank the witnesses for 
coming.
    Kyrgyzstan is at a turning point, it seems. I think we are 
all hopeful that political stability will come. We have a 
vested interest, as the chairman mentioned, certainly with the 
air base as a supply hub for our operations in Afghanistan. The 
existence of a U.S. base in a former Soviet territory has been 
troublesome for Russia and, to make matters worse, there are 
longstanding allegations that former leadership benefited 
illegally from Department of Defense fuel contracts, as has 
been mentioned.
    So there is no easy solution here, particularly given the 
air base and the situation we have there, but I look forward to 
any light that can be shed on the situation and what we can do 
as Members of Congress to make sure that we have a secure 
situation for our war efforts in Afghanistan and also to help 
lend stability to the situation there.
    I yield back.
    Mr. Tierney. Well, thank you, Mr. Flake.
    The Chair recognizes Mr. Turner for a unanimous consent 
request.
    Mr. Turner. Thank you, Mr. Chairman. I would like to 
request unanimous consent to make an opening statement.
    Mr. Tierney. Without objection, so ordered.
    Mr. Turner. Thank you, Mr. Chairman. I would like to thank 
you and the ranking member for holding this hearing on what is 
a very important issue, and I would like to pause for a moment 
to recognize in the back of the room we have Dr. Conroy and her 
AP Government class from Georgetown Visitation. They are all 
seniors who are here today participating in the hearing, and 
they include my daughter, Jessica Turner. So thank you, Mr. 
Chairman, for allowing me to recognize them.
    Mr. Tierney. The committee welcomes all members of that 
class, as well as their faculty. We hope you enjoy your stay in 
Washington and appreciate, Jessica, your dad's good work on 
this committee. He does really in-depth work and has been a 
leader here, and we appreciate that.
    Mr. Turner. Thank you, Mr. Chairman.
    For the last 9 years, Kyrgyzstan has continued to assist 
the United States with our efforts in Afghanistan. Successive 
governments in Bishkek have resisted tremendous pressure from 
some other governments who would prefer the U.S. military bases 
be evicted from Central Asia. As a member of the House Armed 
Services Committee, I am frequently reminded of the critical 
contribution the Manas Transit Center makes to supplying the 
United States and NATO troops in Afghanistan.
    I was further reminded of Kyrgyzstan's strategic location 
during my visit there several years ago. Manas also plays a 
vital role in providing security and military assistance to the 
Afghan people. By doing so, this facility and U.S. presence 
there helps the Kyrgyz security. We are grateful for Madam 
Otunbayeva's recent statements that the lease for use of the 
transit center will continue for another year. This assurance 
comes at a critical time in the buildup of United States and 
allied counterinsurgency forces in Afghanistan.
    Furthermore, Manas creates other opportunities for the 
Kyrgyz public, including economic benefits such as jobs, 
salaries, and good services procured, as well as humanitarian 
assistance provided by the military personnel base there. For 
example, the U.S. service members have assisted a local 
orphanage by donating their time and money.
    However, our relationship with Kyrgyzstan and with Central 
Asia as a whole should not be seen exclusively through the 
prism of U.S. bases there or as an adjunct of our Afghan 
policy. Currently, the Defense and State Departments groups 
Central Asia in the same bureaus and divisions as Afghanistan 
and Pakistan. This organizational structure may act as an 
enabling factor for administration officials to pigeonhole 
Central Asian countries as simply a corridor to get to 
Afghanistan.
    We should have in place policies and strategies that look 
at Central Asian states as countries that have their own unique 
cultures, challenges, and possibilities. One of these 
possibilities is helping and encouraging the Kyrgyz people to 
create economic opportunity. Kyrgyzstan has little economic 
means today. The Kyrgyz people need economic opportunities and 
jobs to achieve long-term stability.
    Stability is in America's and NATO's military interest. 
Economic development would help perpetuate stability. 
Prosperity and stability in Kyrgyzstan is also in America's and 
Europe's economic interest.
    Most of the highways already exist for transportation. 
There is required investment that should assist the better 
border management and supporting infrastructure, and border 
control would also help stem narcotics flow out of Afghanistan, 
an issue that I am concerned about.
    To help the Kyrgyz invite more investment, its democratic 
friends around the world, including the United States, must 
help its government to increase transparency. I hope that the 
administration and nongovernmental organizations, some of which 
are represented at this hearing, will assist the Kyrgyz 
Republic in creating ways that provide transparency for 
commercial transactions. This includes working with the new 
interim authorities to determine a way forward that eliminates 
any suspicion of wrongdoing by any party to remove lingering 
doubts that the U.S. directly or indirectly condones 
corruption.
    In the near future, I hope we will also be able to hear 
from administration officials to outline and describe U.S. 
strategies in the region. We need to ensure that we have a 
strategy not only to help Kyrgyzstan and its neighbors, but a 
strategy which continues to buildupon and cultivate U.S. 
relationships in the region.
    Again, I want to thank the chairman for holding this 
hearing.
    Mr. Tierney. Well, thank you very much, Mr. Turner.
    Is there any other Member who would like to ask for 
unanimous consent for an opening statement? Otherwise, we have 
the opportunity to place them on the record, of course, as 
usual.
    The subcommittee will now receive testimony from the panel 
that is before us today. A brief introduction of each of them 
to begin, starting with Dr. Eugene Huskey. He is the William R. 
Keenan, Jr. Chair of Political Science at Stetson University in 
Florida. He also serves as an associate editor for the Russian 
Review and is a member of the Editorial Board for the Journal 
of Communist Studies and Transition Politics.
    Dr. Huskey's work focuses primarily on transition politics 
and legal affairs in the former Soviet Union and its successive 
states of Russia and Kyrgyzstan. He is the author of several 
books and has published dozens of articles about the political 
affairs of Kyrgyzstan and other former Soviet states. He has 
been asked to speak before the CIA, the Department of State, 
and numerous universities in Kyrgyzstan, Russia, Europe, and 
the United States. Dr. Huskey received a B.A. from Vanderbilt 
University, an M.A. from the University of Essex, and a Ph.D. 
in politics from the London School of Economics and Politics.
    Ambassador Baktybek Abdrisaev is a distinguished visiting 
professor of history and political science at Utah Valley State 
College. From 1996 until 2005, he served as the Kyrgyz 
Ambassador to the United States and Canada, and from 1995 to 
2000 he was a member of the Kyrgyz Parliament. Prior to that, 
Ambassador Abdrisaev was appointed director of Kyrgyzstan's 
International Affairs Department under former President Askar 
Akayev.
    Ambassador Abdrisaev specializes in international 
relations, diplomacy, and Central Asian comparative politics. 
He has published dozens of scholarly articles and op-eds on 
Kyrgyz politics, is the author of Kyrgyzstan's Voice in 
Washington, Reflections of the Kyrgyz Ambassador on Bilateral 
Relations During the Transition Year. Ambassador Abdrisaev 
holds a B.S. from the Bishkek Polytechnical Institute, a Ph.D. 
from the Institute of Electronics Academy of Sciences at 
Belarus, and a honorary professorship of the International 
University of Kyrgyzstan.
    Ambassador, I want to express the committee's sympathies. I 
know you had personal losses during this latest uprising over 
there, lost three close members of your family and friends, 
amongst others, so we extend our sympathy to you. We know this 
is difficult testimony for you today and a difficult period of 
your life, and we thank you for taking time out to share with 
us your experience and your knowledge of this area, because it 
was in fact you that first negotiated the agreement with 
respect to Manas, so you have particular insight for us on 
that. Thank you.
    Dr. Alexander Cooley is an associate professor of 
international relations at Barnard College at Columbia 
University and is currently a global fellow with the Open 
Society Institute. His areas of expertise are the political 
transformation of post-Soviet Eurasia, the politics of the 
United States overseas basing, and theories of contracting and 
organization. Dr. Cooley has written two books, including Base 
Politics: Democratic Change in the U.S. Military Abroad, which 
examines the political impact of the U.S. military bases in 
overseas host countries, including Uzbekistan and Kyrgyzstan. 
He obtained his B.A. from Swarthmore College, a Masters in 
philosophy from Columbia University, and a Ph.D. from Columbia 
University.
    Scott Horton is an attorney, a lecturer at Columbia Law 
School, and a contributing editor for Harper's Weekly. Mr. 
Horton is known for his work in emerging markets in 
international law, especially human rights law and the law of 
armed conflict. He is a lifelong human rights advocate and co-
founder of the American University in Central Asia, where he 
currently serves as a trustee.
    Mr. Horton is also a member of the Board of the National 
Institute of Military Justice and a member of the Council on 
Foreign Relations. Mr. Horton holds a B.A. from the University 
of Maryland and obtained a J.D. from the University of Texas 
following studies at the University of Munich and Mainz in 
Germany as a Fulbright scholar.
    Sam Patten is the senior program manager for Eurasia at 
Freedom House. From 2008 to 2009, Mr. Patten served as a senior 
advisor for the Democracy Promotion at the Department of State. 
Prior to that, he headed the International Republican 
Institute's Moscow Office and directed its political 
programming in Baghdad from 2004 to 2005. Mr. Patten has also 
helped manage democratically focused campaigns in Ukraine, 
Georgia, Romania, Albania, and Northern Iraq. Prior to his 
international career, Mr. Patten served as an advisor to 
Senator Susan Collins and a speech writer to Senator Olympia 
Snow. Mr. Patten obtained his B.A. from Georgetown University.
    So we have a lot of fire power here today. We expect to 
really learn a lot and, again, we want to thank you for being 
here, sharing your expansive expertise.
    It is, of course, the policy of the committee to swear in 
witnesses before they testify, so I ask you to please stand and 
raise your right hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you. The record will please reflect that 
all of the witnesses answered in the affirmative.
    Again, I remind you that your full written statement will 
be put into the written record, and I appreciate, as do the 
members of the committee, how extensive those written remarks 
were and how helpful they are in getting our background 
together. We allot about 5 minutes for opening remarks. The 
light will turn green, with a minute to go it will turn to 
amber, and when the 5-minutes are up it will turn to red and 
the floor drops and out you go. [Laughter.]
    But basically we won't do that. We are appreciative of your 
being here. We will have some latitude, but we do want to get 
to a point where we can have some questions and answered 
exchange back from the committee members to the panel.
    So, Dr. Huskey, would you please start?

  STATEMENTS OF EUGENE HUSKEY, PROFESSOR, STETSON UNIVERSITY; 
     AMBASSADOR BAKTYBEK ABDRISAEV, LECTURER, UTAH VALLEY 
 UNIVERSITY, AND FORMER KYRGYZ AMBASSADOR TO THE UNITED STATES 
  1996-2005; ALEXANDER COOLEY, PROFESSOR, BARNARD COLLEGE AT 
  COLUMBIA UNIVERSITY; SCOTT HORTON, PROFESSOR, COLUMBIA LAW 
   SCHOOL, AND CONTRIBUTING EDITOR, HARPER'S WEEKLY; AND SAM 
     PATTEN, SENIOR PROGRAM MANAGER, EURASIA, FREEDOM HOUSE

                   STATEMENT OF EUGENE HUSKEY

    Mr. Huskey. Thank you, Mr. Chairman, Ranking Member Flake, 
and subcommittee members, for giving me the opportunity to 
speak about U.S.-Kyrgyz ties and about the country of 
Kyrgyzstan, which I have been studying for the last two 
decades. Much of my testimony today is based on interviews that 
I conducted with three dozen members of the Kyrgyz opposition 
during the last 2 years. Many of those interviewees have now 
assumed prominent posts in the new government and five of them 
make up the new collective leadership of the country.
    We are here today because the United States tried to please 
a dictator. We all understand that difficult decisions have to 
be made in wartime, but our embrace of the Bakiyev regime in 
Kyrgyzstan was far tighter than it needed to be in order to 
retain our basing rights in that country.
    This became clear to me when I began interviewing 
opposition leaders in July 2008. They complained that for the 
first time in the post-communist era they were shunned by the 
U.S. Embassy in Bishkek. In late April 2009, the opposition 
candidate for president, Almaz Atambaev, told me that neither 
he nor other opposition politicians had been able to meet with 
the new U.S. Ambassador, even though she had been in her post 
for more than 6 months.
    Atambaev was by no means a radical politician; he was a 
former prime minister and a successful businessman. He is now 
in fact the first deputy leader of the interim government, the 
No. 2 man in the country.
    I heard the same refrain of isolation from the heads of 
NGO's in Bishkek. They had become untouchables in the eyes of 
the U.S. Government. These NGO leaders were smart, energetic, 
and anxious to take their country in a liberalizing direction.
    With the U.S. Embassy out of the picture, the Russian 
Embassy in Bishkek stepped into the breach and, for the first 
time, Russian diplomats started to cultivate contacts in the 
western-oriented NGO community. This was the opening gambit in 
what would become a more balanced Russian policy toward 
government and society in Kyrgyzstan.
    In spite of our numerous concessions to the Bakiyev regime, 
including the granting of lucrative contracts that is the 
subject of today's hearing, I would argue that the recently 
vented anger of Kyrgyz leaders and ordinary citizens over the 
air base does not reflect an inherently anti-American sentiment 
in the country. It derives instead from a sense that the United 
States betrayed its own principles and the forces of change in 
Kyrgyzstan in order to curry favor with a despotic ruler who 
held the key to the air base.
    It also, I should add, reflects popular frustration with a 
decade-long history of Kyrgyz presidents selling or leasing 
pieces of the country's territory to the highest foreign 
bidder. These bidders have included Russia, Kazakhstan, China, 
Uzbekistan, and the United States.
    Let me turn finally to a few of the issues that will shape 
the future of the air base and U.S.-Kyrgyz relations more 
broadly. First, it is vital that the interim government in 
Bishkek consolidate its authority throughout the country. The 
air base cannot function properly against the backdrop of 
sporadic civil unrest, never mind a civil war. The country is 
deeply divided along north-south lines and pockets of 
resistance to the revolution remain in the south.
    Because the revolution was made in the north by 
northerners, and because the deposed president was from the 
south, there is great concern in the south that the interest of 
this historically disadvantaged region will not be fully 
represented in Bishkek. The interim government has made a good 
start by including two leaders from the south in its senior 
ranks, but there is still much work to do.
    Second, who rules Kyrgyzstan and how will be determined in 
the next 6 months by the introduction of a new constitution and 
the holding of new elections. The new constitution is likely to 
strip the presidency of much of its power and strengthen the 
parliament. This should make politics more competitive, but it 
may also complicate future negotiations over the air base. The 
U.S. administration may need to gain the support of a coalition 
of parties instead of a single individual, as in the past.
    As elections grow closer, the tensions within the 
collective leadership will increase because the focus of the 
rulers will shift from governing to campaigning for their party 
or for the presidency. It is at this point that the system is 
likely to be at its most fragile and there will be the greatest 
temptation for Kyrgyz politicians to use the air base at Manas 
as a whipping boy in order to advance their own electoral 
prospects.
    It is in the interest of the United States, then, to have a 
thorough and early airing of our misdeeds with regard to the 
base and the Bakiyev regime. We do not want the next elections 
in Kyrgyzstan to be swayed by an October surprise that could 
reveal embarrassing details of our earlier policy toward the 
country. I welcome, therefore, your efforts to investigate our 
policies toward the Bakiyev regime. I also welcome the early 
signs from the administration that we will be pursuing a new 
strategy of engagement with governments and societies in 
Central Asia.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Huskey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Tierney. Thank you, Doctor. We appreciate your remarks.
    Ambassador.

           STATEMENT OF AMBASSADOR BAKTYBEK ABDRISAEV

    Mr. Abdrisaev. Dear Mr. Chairman, dear Ranking Member 
Flake, dear members of the subcommittee, ladies and gentlemen. 
First of all, I would like to express my sincere gratitude for 
inviting me to testify before your committee on the recent 
change of government in Kyrgyzstan and its impact for U.S.-
Kyrgyz relations.
    When the upheaval of April 6th and 7th happened in 
Kyrgyzstan, I was teaching my students in Utah at Utah Valley 
University. This time, in comparison with the events 5 years 
before, a regime of the deposed President Bakiyev, as he 
promised, used live ammunition against protesters, and soon, 
like many others in Kyrgyzstan, I felt a great pain from this.
    Among those who fell, struck by the two bullets in the head 
was my nephew, 35 years old, Rustan Shambetov, and one of my 
wife's cousins, Mirlanbek Turdaliev, 29 years old, who was 
raised as an orphan in Jalalabad, the same city from which the 
deposed President Bakiyev also came. Then one more person, 
Joldoshbek Kudaybergenov, 36 years old, journalist, who was 
just witnessing the process and tried to await some news about 
that. He was struck by a bullet.
    So this is also the proof that there were so many people 
there involved, not just the crowd and mob, but just many 
people who are sincerely, genuinely trying to witness the 
changes that was going on.
    So the upheaval caused 85 people so far and hundreds and 
hundreds still are there in hospitals. And now the Kyrgyz 
people there want, first of all, accountability for the 
government which was undermined by corruption and nepotism, and 
also a government which authorized the use of lethal force 
against protester citizens. But they also want a new 
government, and they have high expectations from the people who 
are now in the interim government who would restore democratic 
freedoms, ensure free access to the market, and the system of 
corruption and patronage.
    They also are asking questions. Most important, is America 
truly our friend? And if so, then, first, America should 
demonstrate its commitment to democracy and the values of an 
open society with more than just words. Second, America should 
also remember that Kyrgyz society, despite the questions quite 
sharp and not pleasant about the procurement contracts, etc., 
still continues to view America as a model worth emulating.
    Third, America should remember that its support, for 
example, for education in Kyrgyzstan has had a far more 
positive impact on our country than the Transit Center. U.S.-
founded American University in Central Asia is now among the 
most prestigious universities in Central Asia and the region, 
and America can show it cares about our country by continuing 
such generous support for education that is shaping our 
country's future.
    And as far as the air base, Manas, is concerned, I would 
like to remind you, first, that its major aim was, and still 
continues to be, to support U.S. military operations in the war 
in Afghanistan and, as a result of that, to maintain security 
for the Kyrgyz public against external threats that originate 
in that country.
    Therefore, from the beginning, the air base operation, the 
issue of payment was never our primary concern. The Kyrgyz 
government was focused on the threat of its own population 
originating from Afghanistan starting from 1999 when, for the 
first time, we experienced incursions of al Qaeda on our soil 
and, as a result, 3 years before 9/11 we experienced such 
attacks and we lost 55 lives of our people in uniform and 
citizens.
    So, therefore, when the United States came with such a 
proposal, we welcomed it and said, as President Akayev 
mentioned in 2002 during his visit to Washington, DC, at CSIS, 
that Kyrgyzstan will make its own contribution to fight with 
this great evil terrorism. We are not asking for the money 
because this is our own fight for the triumph of democracy and 
the right to enjoy its fruits, to live in peace and prosperity.
    I am really grateful to you for, again, having this 
hearing. So many of you talk why and how the issues from such 
kind of strategic importance now shifted to the issue about the 
so-called corrupted practices from both sides, and I know that 
my colleagues have a lot to offer.
    But my main message is that we have to restore our 
cooperation on a wide-range of issues, and the issue of the 
base is extremely important to us, to continue to keep its 
presence as a strategic asset for us against a strike from 
Afghanistan and, at the same time, to pay attention to other 
areas--education, political, and economic reforms--which could 
help the country continue to advance itself in Central Asia, 
which deserves its own right and place in the international 
community.
    Thank you very much.
    [The prepared statement of Mr. Abdrisaev follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Tierney. Thank you very much, Ambassador.
    Dr. Cooley.

                 STATEMENT OF ALEXANDER COOLEY

    Mr. Cooley. Thank you very much, Chairman Tierney, Ranking 
Member Flake, distinguished members of the subcommittee, for 
this privilege of addressing you today. I am a political 
scientist who has studied the Manas Air Base since its 
establishment in 2001 and studied in a comparative context, 
viewing developments related to the base in comparison to other 
bases that we have in places like East Asia, Southern Europe, 
and other post-communist states.
    Regrettably, it is not surprising that the U.S. military 
presence has become intertwined with allegations that the U.S. 
supported of the repressive and corrupt regime of President 
Kurmanbeck Bakiyev. At the same time, I do believe we have the 
opportunity now, if we act I think with some foresight and we 
act aggressively, to salvage the base.
    I think it is important at the outset to understand that 
the base has come to mean different things for Kyrgyzstan and 
the United States. For us it is, naturally, this important, 
vital hub to support the mission in Afghanistan. And for the 
Kyrgyz, when it was first established, this was also the 
security purpose.
    However, the base's role within Kyrgyzstan has evolved 
since its establishment, and during the Bakiyev regime and, I 
would argue, the latter stages of the Akayev regime, the base 
became viewed primarily as a domestic source of rents, income, 
and patronage. So this is why the United States has to pay quid 
pro quo to establish its presence in Kyrgyzstan. It otherwise 
lacks the authority, just from of this vital international 
mission, to keep the base.
    Now, this quid pro quo has been official, in the form of 
rental payments that have gone from $2 million to $17 million 
to the current $60 million, but some of the quid pro quo is 
also tacit; and this is when we get into the business of base-
related service contracts and fuel contracts. Unfortunately, 
both these official and these tacit payments have tended to 
accrue to Kyrgyz elites and have not benefited Kyrgyzstan and 
Kyrgyz's development as a whole. So the base means very 
different things to each side.
    As you mentioned in your opening remarks, Mr. Chairman, the 
base also became a symbol of the U.S.'s indifference to 
regressions in Kyrgyzstan's human rights and democracy. Also, 
the base itself was viewed not only as a symbol, but as an 
actual site of Bakiyev's greed and cronyism. It functioned as a 
daily reminder of what this regime had become.
    The point I want to make in my remarks to you is that we 
learned actually the wrong lessons about the relationship 
between political authoritarianism, stability, and basing 
rights. Many DOD and State Department officials I talked to 
pointed to the example of Uzbekistan as a cautionary tale of 
what can go wrong; where, in 2005, after the crackdown of Uzbek 
security services against demonstrators in the eastern city of 
Andijon, there was a wave of international criticism, including 
from the U.S. State Department.
    The Uzbek government became very concerned about our 
political commitment to them. This was also in the middle of 
the colored revolutions. And this led to a series of events 
that resulted in the eviction of the U.S. military from the 
Karshi Khanabad K2 facility in the summer of 2005.
    So the lesson seems to have been learned: don't push 
Central Asian governments on human rights and democracy; 
otherwise, you will jeopardize the base. But the fact of the 
matter is that Uzbekistan and Kyrgyzstan have very different 
political cultures. Kyrgyzstan is considerably more open; has a 
better civil society; and its security services are not as 
repressive and never have commanded the loyalty of the regime 
as they have in Uzbekistan.
    And you saw that; in both 2005 and 2010, the security 
services did not go to the mat for the Kyrgyz regime. So that 
is one thing, that we sort of thought there was this one 
Central Asian political culture that fits all.
    A second point I would make is that we started viewing 
Bakiyev's authoritarianism as, in and of itself, evidence of 
political stability, when in fact it was popular protest 
against electricity rate hikes and against the greed and 
corruption of the regime that led to its destabilization.
    So I would just make those two points.
    Recommendations going forward. We do have to mend fences 
with the Kyrgyz government, and quickly. I think we can offer 
financial support for very specific goals that we can agree 
with, for example, helping them finance this upcoming 
Presidential election that will be so open.
    Second, I think U.S. officials should publicly declare 
their willingness to cooperate with any Kyrgyz investigation to 
Bakiyev-era base-related business practices and open these 
transactions to public scrutiny. I realize these are going to 
inconvenience certain parties, but the symbolism is important. 
This has to be treated as a political crisis, not as a legal 
matter. And one suggestion I would have is look at ways in 
which base-related contracts can accrue into the Kyrgyz 
national budget, as opposed to private entities with offshore 
registrations.
    Finally, I think both the President and the Congress should 
recommit to supporting Kyrgyzstan's democratization and support 
the appropriate programs.
    My final point, yes, the base was extended for a year, and 
we are all grateful for that, but we are entering a campaign 
cycle now where this will become a political pinata for 
populous politicians to really link the base to U.S. support of 
an unpopular dictator. So as Professor Huskey mentioned, it is 
imperative that we take these actions now, and not in October 
when the campaign is in full swing.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cooley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Tierney. Thank you very much, Dr. Cooley.
    Mr. Horton.

                   STATEMENT OF SCOTT HORTON

    Mr. Horton. Chairman Tierney, Ranking Member Flake, and 
distinguished Members, it is a great honor for me to appear 
before you today and talk about the situation in Kyrgyzstan.
    I want to start by noting my colleague, Alex Cooley's 
comment. He says we need to look at this as a political matter, 
rather than a legal matter, and I will submit we have to look 
at it both ways. I submit that principally because I am a 
lawyer and it is my duty here to look at the legal issues; and 
that is what I have done. But I also feel that is a fundamental 
aspect of the political controversy in Kyrgyzstan today.
    This revolution, reduced to one word, was about corruption. 
Now, all the political leaders that I have talked with agree, 
and in the wake of the revolution there is a great deal of talk 
about the rule of law and transparency. And the question I hear 
thrown at me as an American, when I talk with them, over and 
over again is what is your commitment to the rule of law and 
transparency? You talk about this all the time and we don't see 
it in your conduct in our country.
    And I am ashamed to say I think they have a valid point. So 
I looked with some care at the publicly available information 
concerning the fuel contracts that were written relating to 
Manas, and I note in my remarks that we don't have the quality 
of information that a prosecutor could use to bring a case, but 
I think we can draw some conclusions from this information.
    And the first is that there are numerous red flags of the 
sort traditionally used by our Department of Justice when 
looking at bribery cases relating to public contracts, which 
suggests strongly that we may be looking at a violation of the 
Foreign Corrupt Practices Act and other anti-bribery statutes. 
And certainly there are sufficient red flags to merit the 
opening of a formal and detailed inquiry into what transpired.
    The second thing is looking at the structure of these 
contracts and looking particularly at Red Star and Mina Corp., 
the two entities which received in excess of $1 billion in fuel 
supply contracts. They are very disturbing questions concerning 
these companies. They appear to have come out of nowhere with 
no prior track record of involvement in this sector; the 
individuals involved with them have copious connections to the 
U.S. Government, but not really very much to the fuel supply 
industry; and the contracting relationships themselves are, in 
a word, extraordinary, not consistent with traditional 
contracting rule and approaches.
    In fact, yesterday, in an article by Aaron Roston, he 
secured and released and published a Memorandum of Agreement 
between the Department of Defense and Red Stas, which I 
examined, and I have to say I was just shocked by it. It is 
nothing like a traditional contracting document.
    All this together shows the absence of an arm's length 
relationship between Red Star and the Department of Defense, 
and I think that is quite troubling because, of course, it is 
Red Star and Mina Corp. that historically did do contracts with 
President Akayev's family--I think that information is really 
quite well established--and are accused of having concluded 
similar contractual arrangements with entities controlled by 
President Bakiyev. In any event, that accusation is out there, 
presented very sharply by the Kyrgyz government, and it is 
incumbent upon us to operate transparently, get to the bottom 
of the facts, and admit we made a mistake if in fact we did.
    I also am concerned about the role the U.S. Department of 
Justice has played in this, because after the 2005 revolution, 
the Justice Department did come in, did conduct an 
investigation, and appears to have given a wink and a nod to 
these arrangements involving Red Star and Mina Corp., and I 
think that raises serious questions in my mind about their 
understanding of this contract corruption issue, particularly 
because this occurs at a time when our Justice Department is 
telling us that procurement contract fraud is a priority for 
the Department of Justice. Indeed, they say it is a national 
security issue. And I don't see how we can reconcile the way 
they have behaved in this case with those sorts of statements.
    In the end, how our Defense Department contracts for 
services at Manas makes a statement about how we view 
Kyrgyzstan. Is this a fellow democracy that shares our values 
and the rule of law and transparency, or do we view this 
country as congenitally corrupt and governed by competing bands 
of kleptocrats, where we have to use walking-around money to 
accomplish goals and we define the relationship only in short-
term ways, because we are really not looking for a long-term 
relationship?
    The simple truth is that Kyrgyzstan is not a well 
established, stable democracy, but it is also is not some sort 
of Hobbesian nightmare. The people in Kyrgyzstan have very, 
very high aspirations. And the question is what is the path 
forward? How are we going to proceed? Are we going to work with 
the Kyrgyz and support their aspirations for a modern democracy 
that lives up to the values that we both articulate, or are we 
going to continue dealing with them in a way that shores up 
corruption in the country and autocratic rule? And I think the 
approach of the last few years is not worthy of the United 
States and is not worthy of Kyrgyzstan.
    Thank you.
    [The prepared statement of Mr. Horton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Tierney. Thank you, Mr. Horton.
    Mr. Patten.

                    STATEMENT OF SAM PATTEN

    Mr. Patten. Thank you. Thank you, Chairman Tierney, 
Congressman Flake, and other Members, for the opportunity to 
speak on behalf of Freedom House to this subcommittee.
    In his novel The Last Tycoon, Scott Fitzgerald wrote that 
there are no second acts in American lives.
    In view of recent events, a fitting question for this 
hearing, and for those who are concerned about Kyrgyzstan's 
future, is whether there is indeed a second act in store for 
Kyrgyzstan, the far-distant mountainous Soviet state that is 
little known to the American people.
    I would argue that there is if we learn the correct lessons 
from the recent experience. Those lessons would be the first 
application of such lessons in the former Soviet Union. In no 
instance since the color revolutions between 2003 and 2005 have 
any of the former dictators been brought to account for their 
crimes against their people.
    Unfortunately, Mr. Bakiyev's exit from Kyrgyzstan denies 
the Kyrgyz people the opportunity to hold him and his regime to 
account for the crimes that he committed. However, hopefully 
the full investigation that other witnesses have talked about 
and alluded to will be conducted and there will be an 
opportunity to bring the Bakiyev family to account for the 
crimes that no other former Soviet leader has to date been 
called to account for.
    Freedom House is probably best known for the rankings that 
we produce each year of Freedom in the World, Nations in 
Transit, taking a look at all of the countries of the former 
Soviet Union and indeed the world. This year, for the first 
time, we downgraded Kyrgyzstan to not free in January for a 
variety of reasons having to do with the Bakiyev government's 
relationship with the media, its increasing censorship, the 
violence with which it dealt with journalists, and its 
increasing political repression.
    In the spirit of fairness, I took our report to the then 
Kyrgyz Ambassador in Washington, Zamira Sydykova, who is a 
relatively thoughtful woman and a former journalist, much in 
the same spirit as the interim leader, Rosa Otunbayeva, to have 
a conversation and to explain to her why Freedom House 
downgraded Kyrgyzstan to not free.
    She listened to the reasons that I laid forth and that were 
in our reports, and at the end of our discussion she asked, 
``why is it that the State Department no longer talks to us 
about democracy? It used to be that every sentence the State 
Department would say to us would include the word democracy; 
now they only talk to us about trade. If your State Department 
does not care about democracy, why should we?''
    I was stunned by her reaction to the report and, indeed, 
there is an important responsibility. Much blame has been put 
on the Department of Defense for the recent events that have 
happened in Kyrgyzstan. I think it is important to look at the 
role in a whole government approach that the State Department 
also needs to play.
    We have seen in the New York Times the fairly apocryphal 
account of an opposition leader, which has been mentioned here 
today, visiting the U.S. Embassy and saying that the revolution 
begins on Wednesday, and the diplomat with whom he spoke said, 
``oh, yeah?'' Other opposition figures, as we have heard, were 
not received at the U.S. Embassy and, in fact, Congress passed 
the Advanced Democratic Values Act in 2006. There is a law on 
the books requiring senior U.S. diplomats to actively outreach 
and engage opposition figures, human rights activists, and 
others in all countries where the United States conducts 
diplomatic relations. Kyrgyzstan should be no exception; the 
other countries of the former Soviet space should be no 
exception.
    The recent incident in Kyrgyzstan and the ongoing tumult 
that comes from the events of the last 2 weeks puts the 
regional situation, particularly with Kazakhstan, as the 
chairman of the OSCE, in a unique perspective. Kazakhstan's 
becoming the first chairman of the OSCE east of Vienna is a 
historic precedent.
    The events of the last 2 weeks presented the first 
opportunity in Kazakhstan's chairmanship of the OSCE to 
actively engage in a constructive way to diffuse violence, to 
put monitors on the ground, and work in the process of healing 
the country of Kyrgyzstan. They failed. They failed to deploy 
ODIHR, which had the monitors and the resources necessary to 
engage, and, instead, reverted to old-style former Soviet 
diplomacy, in effect whisking Bakiyev off through Kazakhstan to 
Belarus, where he safely sits today.
    I think that is an important lesson looking forward about 
just the role of multilateral institutions in the OSCE in 
particular and how it was intended to be used in situations 
like this and how, perhaps in the balance of Kazakhstan's 
chairmanship, it can do a better job.
    Looking also in the regional perspective, there are lessons 
to be learned here with respect to Uzbekistan in particular. 
And the case was raised that Uzbekistan and Kyrgyzstan are not 
similar in many circumstances; however, the lessons are the 
same. The lesson that we have learned in Kyrgyzstan is that 
backing up a single dictator does not put us in a very good 
position when a revolution happens.
    The question with Uzbekistan is not if the revolution will 
happen, but when it will happen, and do we want to be in the 
same position sitting here at this table, wondering what 
happened, when things do change in Uzbekistan, as we are today. 
A careful look and review of the situation and how Kyrgyzstan 
got to where it is hopefully will put us in a better position 
when that comes.
    Thank you.
    [The prepared statement of Mr. Patten follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Tierney. Thank you, Mr. Patten.
    Thank all of our witnesses for your testimony, both written 
and oral; it has been informative on that. We are going into a 
question and answer period here, about 5 minutes per Member, 
and we will go around more than one cycle if that is amenable 
to all the witnesses and the Members desire it.
    Mr. Patten, it is not unusual for the United States, if we 
go back in our history, unfortunately, and find out how often 
diplomatically we have chosen to support somebody who was 
authoritarian in nature or convenient to moving our priorities 
forward, as opposed to keeping those open contacts with 
opposition leaders as well, and playing a different role. 
Pakistan comes to mind, General Musharraf, as a more recent 
thing, but it goes on and on.
    Let me ask first, though, to all the witnesses here. I am 
hearing that it is a good idea to do this investigation, it is 
a good idea to do it early on, it is a good idea to be as 
inclusive and thorough as we can be. Yet, on the other hand, I 
am hearing that doing that may give fodder to sort of a pinata 
sort of situation in the elections coming up in that country. 
So can you weigh or balance for me the pros and cons of that? 
In any order people want to speak up.
    Dr. Cooley, you have been nodding away. Do you want to 
speak first?
    Mr. Cooley. Yes, Mr. Chairman. I think the base is going to 
be a pinata whether we have the investigation or not. I think 
candidates are positioning themselves. They have all the fodder 
that they need to make these connections. And, again, this 
operates in Kyrgyz political space. This is regardless of what 
the intentions may or may not have been on the part of the 
State or DOD. The base will be an issue. That is why having an 
investigation, being contrite about some of the arrangements, 
all of this is important to give domestic political support to 
those factions, to those candidates that want to maintain the 
base and have good relations with the United States.
    Mr. Tierney. Sure, Mr. Horton, go ahead.
    Mr. Horton. I would just add that I think investigations 
are occurring because the Kyrgyz side is conducting an 
investigation. And while we talk about transparency, actually, 
I think all of us who have tried to look into the issues 
surrounding these contracts have discovered very quickly we can 
get much more detailed information much more quickly in Bishkek 
than we can get it in Washington.
    There are prosecutors out there right now doing detailed 
investigations. Information is circulating about the pricing of 
the fuel contracts right now. Copies of the documents are 
circulating. It is out there. And, frankly, it would behoove us 
to conduct our own investigation and be out there with 
conclusions ahead of them. We have to view it in that context.
    Mr. Tierney. Mr. Horton, as long as you are on that, I take 
note of your comment that there are U.S. individuals connected 
with some of these companies, like Red Star and Mina. So tell 
me a little bit about that, why we should be cautious of that 
and what you know so far.
    Mr. Horton. Well, again, I viewed this from a perspective 
of traditional analysis of the FCPA as it will be applied in a 
commercial setting and I said, if we viewed this as a 
commercial contract----
    Mr. Tierney. The FCPA being the Federal Corrupt----
    Mr. Horton. Foreign Corrupt Practices Act. And one thing 
the prosecutors do applying this is they look to these sorts of 
contract and subcontracting relationships and test is there 
really an arm's length relationship between the original 
company and the first tier contractor.
    In applying those tests, we come to a conclusion very 
quickly there is no such arm's length relationship, and that 
using the traditional factors--who are the officers, who are 
the people who are working in the company, what is its 
tradition, what is its business history, has it operated in 
this sort of business in the past, what volume of business did 
it have before, how are the contracts concluded, was there open 
bidding for it--you apply all these tests and it flunks every 
single test, which means, using the traditional Department of 
Justice analysis, not arm's length.
    Mr. Tierney. Ambassador, what do you say about the Akayev 
regime when it was in power? Do you believe it was corrupt as 
well as the Bakiyev? Do you take no position on that or what 
information do you want to share?
    Mr. Abdrisaev. Mr. Chairman, I would like to say, first of 
all, about the previous question, I think that such an 
investigation will be quite important for a fellow democracy, 
an emerging democracy, to learn lessons from the leading 
democracy in the world. It will demonstrate how some of the 
problems must be resolved in a legal framework. It would be 
really great.
    Second, about the corrupt practices, I think this is an 
issue where we have to now admit that during Akayev's regime, 
when I was an ambassador, in 2003 I was at--University and I 
was grilled on the same issue 7 years ago, and I admitted that 
probably, yes, because the president's family is involved in 
that business.
    But how do we have to regulate it? What kind of legislation 
and framework do we need, because it is an issue that our 
country has to admit and then resolve. And probably this 
investigation will help for us to not to allow for the rulers 
to do something, which people view as against their benefits 
and for their wealth.
    But second, also, it would help for us to understand how 
the base changed its status from being of strategic 
importantance for protection from external threats to now 
becoming such a source of controversy. Because we have another 
example in Kyrgyzstan of the famous company Kumptor Gold 
Mining. It experienced the same kind of problems during 2 or 3 
years, and we have just couple of such projects. Why are we in 
such a bottleneck when people now view the U.S. base as just a 
source of money? And it is quite an important question which I 
think this investigation also would help to resolve.
    Mr. Tierney. Thank you very much.
    Mr. Huskey. Mr. Chairman, could I speak to the comparison 
of President Akayev and Bakiyev on this point?
    Mr. Tierney. There being no objection, sure, go right 
ahead.
    Mr. Huskey. It is true that both were corrupt, both regimes 
were corrupt, but the degree of corruption in the most recent 
regime of Bakiyev was far greater, bringing his son right into 
the central core of the executive branch. The other difference, 
however, didn't have to do with corruption, but it had to do 
with the level of repression. In Akayev it was still possible 
to have a relatively vibrant civil society. That was being 
destroyed since 2007.
    We had a criminalization of the state in Kyrgyzstan, where 
law enforcement authorities were intermingled with criminal 
groups, where the former chief of staff of the president was 
incinerated in his car because he dared to flirt with the 
opposition, we had journalists and opposition politicians being 
killed, members of the parliament being killed. This kind of 
thing didn't happen under Akayev. So I think there was a 
qualitative difference between the Akayev and the Bakiyev eras.
    Mr. Tierney. Thank you. Thank you for that.
    Mr. Flake, you are recognized.
    Mr. Flake. We have spoken about the air base, Dr. Cooley, 
the air base being used politically.
    Dr. Huskey, if you could elaborate how will this be used in 
a political campaign? Is there popular support in the 
population for the air base? Does the population simply want 
the revenue to trickle down a little more freely? Or what kind 
of politics are going to be used with the air base? If you 
could elaborate.
    Mr. Huskey. Again, as I was suggesting, the air base has to 
be seen as a part of a decade-long history of Kyrgyzstan either 
selling or auctioning its territory. It began at the end of the 
1990's with the Chinese border delimitation, where Kyrgyzstan 
lost 250,000 acres to China. There are lots of rumors about the 
president at the time taking money and other members of the 
cabinet. Kazakhstan was given territory; Uzbekistan was on the 
verge of getting a very sweet deal.
    Unfortunately, Manas is a part of that tradition, and I 
don't think we can say that in the Kyrgyz population the base 
is terribly popular. They, I think, have forgotten what 
happened in 2001; it is almost a decade beyond that point. And, 
as Ambassador Abdrisaev was saying, the incursion of people 
from Afghanistan through southwestern Kyrgyzstan at the end of 
the 1990's, alarmed the population and the government. But now 
I think the base is not a terribly popular idea.
    The only thing I would say is that it is possible that some 
of the parties that are now separate will come together before 
the election. If they do, one could imagine a moderate stance 
on this, an accommodational stance. The danger would be that 
kind of fused party would be outflanked by a party willing to, 
again, hit the pinata, as Professor Cooley says, with the air 
base issue.
    Mr. Flake. Dr. Cooley.
    Mr. Cooley. The base will certainly be an issue in the 
campaign, but it is not going to be the only issue, and I would 
argue it wouldn't be the prime issue. What drove the events of 
the last 2 weeks were anger about, as was stated, the increase 
in electricity and gas tariffs, which is a result of corruption 
and the accelerating pace of corruption, which has been pointed 
out that in the Bakiyev government, the level of corruption, 
the depth of corruption intensified tremendously.
    Really, by focusing on corruption and coming up with 
concrete ways of being more transparent in the way in which 
funds are provided for rent and other aspects of the base, the 
United States can best represent itself and put the base issue 
to rest and address the focus on the real issue in Kyrgyzstan, 
which is corruption and its affect on government, which is 
entirely corrosive.
    Mr. Flake. Did you have something to add there?
    Mr. Cooley. Just very quickly. The base faces a very 
negative media environment, and always has, in Kyrgyzstan from 
the Russian language press, and a lot of the stories that they 
run are untrue; they are rumors, they are meant to delegitimize 
it, accuse the base of doing all sorts of things that they are 
not doing. So the media terrain is very difficult and issues 
like this just keep stacking up on top.
    Now, the transit center does have a Web site; it is much 
more proactive than it was a year ago, and I would commend the 
base for taking some good PR steps. But a lot of the images in 
the Kyrgyzs' mind about the base have been set.
    I think our best case scenario, a pro-base politician, if 
we want to use that word, I think will only be able to run on 
the promise that they will keep the base, but renegotiate some 
of its legal provisions. I think that is the political space. I 
think the sort of time for business as usual, no one is going 
to get behind that.
    Mr. Flake. Mr. Ambassador, first, I am glad to see you at 
UVU. My kids are at BYU next door. I am wondering, there was as 
much as $8 million a month, it was thought that might have been 
skimmed off these fuel contracts. Is there any effort or was 
this money seized somewhere in these campaigns that will come 
out? Are politicians claiming that they can recoup some of this 
money and is that a way that they can, through transparency and 
whatnot, legitimize the existence of the base, at least? Is 
there an effort to seize the money that has been skimmed? Or is 
that money just gone now?
    Mr. Abdrisaev. I think it requires a serious investigation 
from the Kyrgyz side and U.S. side as well. But, first of all, 
hearings and transparency in this process I think would help us 
maybe to recover part of that money. But the difference with 
the previous regime, now people would at least know how that 
money would be spent with the current ones for a couple more 
years. I think there is no feeling with the new people there 
will be such problems like before because now we have a 
plurality.
    So many people with different opinions, they will liberate 
some decisions which benefit society in a more positive way 
than the previous regime. The previous regime, everything was 
so clouded and secret and, therefore, as a result, of course, 
such problems. But now I think it is worth to do it.
    And, by the way, my guess is if you would do that, we would 
ask also the economic conditions and question the presence of 
another base which exists and also a Russian one. And, by the 
way, when we signed the agreement with both the United States 
and Russia in 2001, the reasons were the same, and it is quite 
important for us to see how, in this case, society would 
benefit politically, strategically, economically from both 
cases. So don't be afraid.
    Mr. Flake. Thank you.
    Mr. Horton. [Remarks made off mic.]
    Mr. Flake. If that is OK with the chairman; I am out of 
time.
    Mr. Tierney. Sure. Go ahead.
    Mr. Horton. [Remarks made off mic.]
    Mr. Flake. Can you put the mic on?
    Mr. Horton. I am sorry. So $200 million they say has been 
transferred out. They are trying to trace that money and freeze 
it right now. So there is an ongoing effort to specifically 
identify the counter-parties and freeze and secure the funds, 
just hold it while they then deal with the question of 
liability and whether it can be recovered.
    Mr. Flake. OK. Thank you.
    Mr. Tierney. Thank you.
    Mr. Driehaus, you are recognized for 5 minutes.
    Mr. Driehaus. Thank you very much, Mr. Chairman, and thank 
you for holding this hearing.
    Dr. Huskey, you had talked about the actions of the U.S. 
Embassy and our treatment of opposition leaders leading up to 
the change in government, and I am curious as to your opinion 
as to whether or not, structurally, at the embassy, folks have 
recognized the failure of their actions and what we have done 
to address that.
    Or are the same people in place? We talk a lot about this 
investigation and looking at the air base, but I am wondering 
if we are also looking internally at the decisionmaking process 
at the embassy and whether or not we have learned anything from 
that and are outwardly expressing signs that, yes, we recognize 
what we failed to do and we are adjusting for that.
    Mr. Huskey. Last week I spoke to people in the State 
Department and the administration. I think there is a 
recognition that changes have to be made in the embassy. The 
previous Ambassador who left--it would have been right about 
when I arrived in July 2008, had had a fairly active agenda 
with opposition members, and the new Ambassador, Ambassador 
Gefeller, adopted a very different policy.
    I understand, again, simply from secondhand accounts, that 
there was some disagreement with that policy in the embassy 
itself, and I am afraid you will have to go elsewhere to find 
more detail about this, but obviously an ambassador would not, 
it seems to me, on her own be able to make such an important 
decision as to stand aside from the opposition of the 
democratic change-oriented forces in a country. That would have 
had to have been something known and approved in Washington.
    Mr. Driehaus. So it is your understanding that the policies 
that were being pursued were being instructed or driven by the 
State Department in Washington, not necessarily driven by the 
Ambassador?
    Mr. Huskey. I would so assume.
    Mr. Driehaus. Have there been outward signs at the embassy 
to the government? There has been mention of the way in which 
we could help fund education, how we could pay for the 
elections. We talk about the path forward, as Mr. Horton 
suggested. The investigation is important, but are there other 
things that the embassy could be doing to show that we have 
learned our lessons, to show that, in fact, we are working 
cooperatively with the government, we are rooting out some of 
the corruption that has been identified and we are on a new 
path? Have there been outward signs to that effect from the 
embassy?
    Mr. Huskey. The embassy has certainly been talking to the 
interim government, and very actively. It is probably early 
days to re-engage with NGO's, but I would assume they would do 
that and they would do that, again, very actively. There are a 
number of projects that the United States probably ought to get 
involved in in that region, some of them infrastructural 
projects that would assist them in hydroelectric production.
    Russia has gotten involved in a very big way with a kind of 
demonstration project, a huge scale project that is now 
somewhat uncertain as to when it is going to be finished. But 
there are a lot of small scale hydroelectric things that we 
could do in the United States that I think would bring terrific 
economic and political benefits to both sides.
    Mr. Driehaus. Mr. Ambassador.
    Mr. Abdrisaev. I would like just to add maybe the view of 
the outsider, because for 5 years I was out of the 
decisionmaking in Bishkek, also dealing with the U.S. Embassy. 
I think it will be difficult to blame just the Ambassador for 
such changes in policy. My guess is that the opinion of 
[indiscernible] is quite important. The United States probably 
already decided not to treat our country as a fellow democracy, 
but just a regular case of a corrupted and failed state.
    And we could see so many opinions not only among the State 
Department people, but also among the [indiscernible] experts. 
In 2005, I was surprised by the fact that President Nazarbayev 
used the case of Kyrgyzstan as mocking in order to be reelected 
for the next time, and it was surprising that neither the 
United States or experts in the west, they just looked at that 
case as something which is indifferent for them.
    Our country was used as a case of, again, a violent one and 
failed one, and here we already started to lose its connections 
based with respect to the values and shared values as well. And 
Bakiyev we have to also take into account, he did all of the 
efforts in order to cut ties with the United States. He never 
ever expressed his desire to come to Washington, DC. During his 
time, four diplomats were expelled from Kyrgyzstan. It is 
unimaginable. It is unimaginable to expel for almost nothing.
    And I can understand the Ambassador, when she came to her 
new position, there was already a whole trend. Now it is 
necessary to change, again, to restore our attention based on 
the multidimensional cooperation--educational, people's 
diplomacy exchanges and other things that could restore the 
credibility and will be a different attitude.
    Mr. Driehaus. Thank you, sir.
    Mr. Tierney. Mr. Turner, you are recognized for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Patten, you had mentioned that perhaps they weren't 
hearing the word democracy enough from us, so my question is 
about democracy. I would like each of you, if you would, to 
give us your thoughts on what does the transition look like. Is 
it possible for them to transition to democracy? And what can 
we do to help?
    Mr. Patten. Of all the----
    Mr. Turner. I am sorry, Mr. Patten, before you begin, 
because I have a feeling that may take up most of my time for 
you to each give your thoughts on democracy.
    I want to ask unanimous consent from the chairman. I have 
an article that is ``Regardless of Who Is in Power, We Have an 
Ally in Need,'' by Eric Stewart, former U.S. Department of 
Commerce Deputy Assistant Secretary for Europe and Eurasia, 
which just sounds many of the themes that I know you are going 
to be telling us.
    Mr. Tierney. Without objection, that will be put in the 
record.
    Mr. Turner. Thank you.
    Mr. Patten.
    Mr. Patten. Thank you, Congressman. Kyrgyzstan has, for 
some time, been seen among all the Central Asian states as the 
most pluralistic, with the most opportunities for citizen 
participation. And certainly during the Akayev period that was 
seen to a far greater extent than in Kazakhstan or Uzbekistan 
or obviously Turkmenistan.
    The repressions increased over the Bakiyev term, but there 
is an experience in Kyrgyzstan of civic entitlement that does 
not exist elsewhere in Central Asia, and for that reason there 
is an opportunity, particularly in this next 6 months and the 
3-months leading up to the constitutional referendum, and then 
in the fall elections.
    The key issue is really going to be the legitimacy of the 
interim government. This is an unelected government, whereas 
Bakiyev was elected, albeit by a rigged election. So the best 
way that they can approach that from a standpoint of democracy 
is to engage civil society, which is reasonably strong in 
Kyrgyzstan relative to other Central Asian countries.
    There is an independent public council of strong civil 
society groups that has played a very constructive role in the 
last 2 weeks. They have engaged in an effort to try and ease 
tensions between Bakiyev, before he left the country, and the 
interim government, and they have offered draft legislation 
already to be considered, issues such as freedom of the media 
and reform of police and law enforcement.
    So encouraging and supporting civil society is probably the 
best thing we can do in the next 3 to 6 months.
    Mr. Horton. Well, I agree with Sam Patten on every single 
point he made; they are exactly right up and down the list. And 
I think acting decisively, vocally, and with funds to support 
these elections, to support the constitution process is 
extremely important. Enabling civil society, ensuring that it 
plays a vibrant role, as I am sure it can, in this process is 
critical.
    And I think Kyrgyzstan is a standout in this entire region; 
it is a country where there are, in fact, millions of people 
who deeply care about democracy and civil liberties. They are 
willing to take to the streets for it, to stand up and die for 
it. They have overturned two governments over this. It is a 
unique opportunity and it is something that forms the basis for 
a bond with the United States that can be lasting and it can 
serve our mutual security interests.
    Mr. Cooley. Yes, I would just underscore that I think the 
focus should be on encouraging political pluralism, be it in 
media or civil society. Yes, the technical stuff is important 
in terms of democracy, but it is really creating spaces for the 
rich political pluralism and diversity of viewpoints and 
external affiliations that the Kyrgyz have. I think that should 
be the focus.
    Mr. Abdrisaev. I would like also to mention here, as an 
addition, that now it is time to work with the political 
parties, and during my couple of years last time with the 
opposition, I could see a couple of really great hopes with 
several parties. So that is why if we would embolden them, help 
them, especially not only with creating the party structures, 
but also some of the bodies which help them to develop 
programs, analytical research, etc., and they will quite 
quickly adjust to that, it will develop quite a sound, long-
lasting programs and would have an impact.
    One such party I would say [indiscernible]. I was 
impressed. He is the person during the 2-years was trying to 
push the process of engaging the people, using his grassroots 
level support and with quite impressive developments.
    Mr. Huskey. Just quickly. I think we have heard about two 
preconditions that are in place for democracy, one is culture 
and one is leadership with Tekebaev, the Ambassador just 
mentioned Atambayev Suriev.
    But I think the other issue is institutions and what kinds 
of rules are going to be established in the constitution 
drafting. It is my feeling that a parliamentary republic for 
Kyrgyzstan will be preferable. It will prevent the 
concentration of power; it will be less likely that we will 
have a winner take all type election with the presidency. And 
we see already in the draft that Mr. Tekebaeu has put forward, 
he has the idea of the legitimacy of the opposition, which we 
take for granted in this country, but which we only developed 
in the early 19th century in the United States.
    And Kyrgyzstan and many other countries in the world are 
trying to do that. He is trying to institutionalize this by 
actually giving the opposition the chairmanships of the two key 
committees in the next parliament; that would be the budget 
committees and the defense committees. Frankly, I am not sure 
that will work, but at least there is the idea of creating 
institutions that are going to prevent a concentration of 
power.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you. You can pretty much bet that 
wouldn't work around here. [Laughter.]
    Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you.
    I really appreciate your testimony, but I want to ask the 
question about what appears to me to be an unresolvable 
conflict, and get your thoughts on that. On the one hand, the 
necessity for the American military is to have a secure supply 
line, and that obviously is to protect our troops. And that 
need suggests, to accomplish it, a partner that they can deal 
with, corrupt or not, and that urgency of supplying our troops 
is going to take precedence, I would think, over any other 
goals.
    What you have been describing are, in effect, pro-democracy 
goals that I certainly support, but in the real world, 
particularly with the pressure that is on our troops, is going 
to be considered a luxury. So how do you do both, or do we have 
to face the fact that we can't do both?
    I will start with you, Dr. Huskey.
    Mr. Huskey. It is going to be very difficult to do both, 
but the reality is that if they elect a government that isn't 
willing to extend the air base lease, there is not much we can 
do about it except offer a lot more money. And I think money 
will speak in a country that has a very small GDP, struggling 
budget, economic crisis. I think there are ways, therefore, 
that even if we have a very negative outcome in the fall, that 
we may be able to counterbalance that, but I think it is going 
to be a very heavy price we would have to pay.
    Mr. Welch. Ambassador.
    Mr. Abdrisaev. Thank you for asking such a question. I 
think now we have more hopes with this second upheaval that 
society and political structures which we are creating would be 
more receptive to the variety of opinions, and I think that no 
one need here to be afraid that if the ruling party will make 
such a decision. Now we have more voices in order to oppose.
    You can see, for example, I have an opinion. This is a base 
which has a strategically important meaningful [indiscernible]. 
I know several opposition leaders, hardliners who are saying 
the base is necessary to keep there. Why? Because we already 
sacrificed 55 lives and the situation now in Afghanistan is 
worse than it was in 1999. Therefore, it is something where 
will be no decision like Bakiyev; money in pocket and that is 
it.
    Mr. Welch. Thank you. Let me keep going. Thank you very 
much, Ambassador.
    Dr. Cooley.
    Mr. Cooley. No, I mean, I think this is the dilemma. I 
would make two points. One is because of the different things 
that the base meant to us and to the Kyrgyz, I think threats 
that the Kyrgyz should somehow evict the United States were not 
credible. In other words, I think we had considerable more 
leeway for maneuver on the political issues than we thought at 
the time, No. 1. No. 2, planning for political change, 
especially in an important overseas base host, that has to be 
part of the strategic planning effort.
    Hedging our bets, reaching out to potential future 
political leaders, it is not an all or nothing proposition, 
because we have a lot of historical cases here. The 
Philippines, we didn't manage the opposition well there; 
Thailand; Spain; Greece; Turkey; Okinawa; even the backlash in 
Korea that you see. All of these have to do with sort of 
democratizing forces coming in and reexamining basing 
relationships because somehow they were linked to sort of the 
past. So I would make that strategic planning part of the way 
we think about the base in an everyday sense.
    Mr. Welch. Thank you.
    Mr. Horton.
    Mr. Horton. I would say I think we have to start by 
recognizing there will be situations where imperative concerns 
of national security will justify a departure from normal 
procurement rules. I will put that mildly. But I am not sure, 
in fact, I believe that Kyrgyzstan was not such a case, and 
where the appropriate effort to do it the right way needed to 
be made and wasn't made.
    And I think there is also another really fundamental point 
that I think Alex just made, but I will put it in slightly 
different terms. It is a question of whether we are focused on 
the short-term or a long-term relationship. If it is a short-
term, well, corners will be cut and we don't care.
    If we want to have a long-term relationship with this 
country, we want to have a facility there for the long term--
and that is a politically very hot issue, of course--then we 
have to modulate our behavior accordingly, and we have to 
respect them and show respect for their institutions, their 
aspirations for rule of law and democracy. We haven't done 
that. That, I think, was a serious error in Kyrgyzstan. And now 
it is up to us to draw conclusions about it and try and 
straighten the situation up.
    Mr. Patten. Congressman, your question is really central in 
terms of whether or not we can do both, and I believe we can do 
both on the basis of accumulated experience and looking at 
where we have been successful and where we haven't been 
successful. As Ambassador Abdrisaev mentioned in his opening 
remarks, having served the Kyrgyz government at the time the 
base was initially opened, it is in the Kyrgyz national 
security interest to have an American presence there. The tide 
seems to have shifted in Central Asia where, in the 1990's, 
when the Americans first showed up in Central Asia, all of the 
states understood that there was a strategic value in having 
the United States present.
    Now that we are in the position of appearing to be 
blackmailed by a dictator, other dictators are looking at that 
and seeing possible opportunities. We have to shift back to the 
strategic questions while applying the lessons learned.
    Mr. Tierney. Thank you, Mr. Welch.
    So, Mr. Horton, at this juncture is there any information 
that you are aware of that suggests that the Department of 
Defense purposely designed the fuel service contracts to enrich 
the first families?
    Mr. Horton. It seems to me that the Department of Defense 
absolutely accepted that might be the most expedient way to 
proceed.
    Mr. Tierney. You should have been a diplomat.
    Mr. Horton. That is the perception, the very broad 
perception inside Kyrgyzstan. We see that charge being made 
dramatically by the chief of staff, Edil Baisalov, a number of 
other people. I, frankly, looking at the details of how these 
contracts were structured, who was involved with them, I find 
it very difficult to refute that.
    I think it is likely that we are going to see the Defense 
Department say, well, at the end of the day, we got the fuel, 
we got it on time, and we got it for a reasonable price, so who 
cares. And the answer to that has to be, two governments fell 
in part because of this, so it really does make a big 
difference and it really has disturbed our relationship with 
this country, which at one point was clearly the most pro-
American country in Central Asia and today may no longer be 
that.
    Mr. Tierney. So it begs the question or the answer, I 
guess, that certainly they could have taken steps to steer 
those contracts away from the private interested companies and 
to another government type of entity or something a little more 
national in nature on that, how would that have looked?
    Mr. Horton. I think they could have gone through a 
transparent public bidding process for the contracts, and they 
should have--what you would have seen, probably, was an effort 
by Kyrgyz authorities to rig the process so that only one 
company would be available as a possible provider or bidder.
    But I think the United States would have come out of this 
much better if it went through a public process and 
procurement, set it up for bids, and awarded it. At the end of 
the day, if it wound up going to a company that was controlled 
by the president, if that happened as a result of an open 
public process because that was the only company that was 
capable of fulfilling the contracts, we would be a lot better 
off.
    Mr. Tierney. Well, I think we already have evidence that 
was not the case.
    Ambassador, let me ask you. For a country the size of 
Kyrgyzstan, and now the $64 million lease number people bandy 
around, what would that money have meant to Kyrgyzstan if it 
had not been dissipated into other corrupt bodies? What would 
it do for a country like Kyrgyzstan to have the use of that 
money?
    Mr. Abdrisaev. I think it is this question of the 
government, and probably they would be in the process of open 
bidding, they will see how, through the taxes, it will be 
redistributed to different needs for the people, and they could 
explain it. But with the government of the Bakiyev, probably 
this was not the case; they were interested in different 
things.
    You mean not about additional to the oil? I think, again, 
through the budget they could show the true use for the paying 
of the salaries and sustain some of the other projects. But my 
guess here is base issue is not--the problem that now we have a 
bottleneck in Kyrgyzstan and the base is becoming just one of 
the few projects, and we need here more diversity. Still, the 
problem will continue further in the future, and we have to 
work on that issue as well.
    Mr. Tierney. Thank you.
    Dr. Huskey, how does that number relate to the overall GDP 
of Kyrgyzstan?
    Mr. Huskey. I think it is something like 3 percent. I mean, 
this is not high. It is a significant amount of money and it 
clearly could have been put to very good use for the Kyrgyz 
people if this money had not been syphoned off. It is a trick, 
because even if you have open tender, you need to have a 
competitive bidding process.
    It is possible in a Bakiyev-like environment for people 
surrounding the family, after the fact, to come in and horn 
their way into these legitimate businesses. This has happened 
one time after another in Kyrgyzstan and other parts of the 
post-communist world. But at least the original bidding should 
be competitive and above-board.
    Mr. Tierney. Thank you.
    Mr. Driehaus, would you care to ask any more questions?
    Mr. Driehaus. I would just like to ask one final question, 
if we could run through the panel. Clearly, the United States 
has suffered a blow in terms of its legitimacy in Kyrgyzstan 
with respect to the long-term interests of the United States in 
the region and the country, and I think we have discussed some 
of this, but what are your one or two things that you believe 
we should be focusing on that would support the long-term 
interests not just of Kyrgyzstan, but also of the United 
States--which I believe would also benefit us in the short-
term--with regard to the base?
    Dr. Huskey.
    Mr. Huskey. Well, I think something that hasn't been talked 
about is the role of Russia in this. Russia has been a very 
important player in bringing about the revolution, in trying to 
expel the United States in the first place, so this is not just 
a U.S.-Kyrgyz issue.
    There is a triangular aspect to this, so I think we have to 
frame it in that way. Russia is trying to expand its sphere of 
influence, understandably, after the difficult decades for them 
of the 1990's, and why it wanted to expel the United States. 
Was that simply a sphere of influence issue? Was it trying to 
have a bargaining chip with the United States on other perhaps 
larger issues of bilateral matters between the two countries? 
Let me just stop there and I will let my colleagues add.
    Mr. Abdrisaev. I think it is an issue about investments, 
which were already mentioned, quite an important one, and I 
planned at the beginning not to raise that issue, but probably 
it is time. Kyrgyzstan, from 1998, is the only country from the 
WTO in the region, and from that time during all of the 12 
years, it is the only WTO member in the whole region, and China 
just during 2000.
    So you could imagine that 12 years ago 200 percent of 
[indiscernible] against all our goods, and this is a factor 
that has contributed to the poverty, unemployment, and 
desperation. So we need more investments. And the people would 
be happy. And Kazakhstan, who is teaching us about many things, 
they are also contributing to our poverty as well.
    Why? Two hundred percent. I would like to say, like 
President Reagan said in a famous speech, Mr. Gorbachev, 
please, tear that wall down. And then it will be a miracle. Our 
people know how to handle it.
    Mr. Tierney. Thank you.
    Mr. Cooley. I think one lesson here is that we need to get 
out of the sort of competitive mind-set that our competition 
with Russia, some type of great game, that zero sum for 
influence in Central Asia. I think this is potentially quite 
destructive because it also leads the Russians to behave in 
that kind of way, where they think any kind of blow that they 
can strike against our presence there is a gain for them.
    So I think part of it has to be recalibrating the mind-set, 
being very clear as to what our goals are in Central Asia. Are 
they access to the base? That is not the same thing as 
undermining Russia, and working, I think, in a more 
consultative way with Moscow would behoove us.
    I see three-way competition in Central Asia between Russia, 
the United States and China. China did more trade with Central 
Asia in 2009 than Russia. So in this relationship Central Asia 
is not our backyard; Afghanistan's backyard. We need to have a 
distinct brand. What do we stand for that China doesn't stand 
for and that Russia doesn't stand for.
    So this is why we get back to the importance of things like 
transparency and investment, engaging on a range of sort of 
social democracy issues. Things that the two other regional 
powers don't do, I think that will be part of our brand in 
Central Asia moving forward.
    Mr. Horton. I think the path to our retention of our 
position with this base starts with our demonstration that this 
relationship is not just about the base; that there is a 
broader foundation for it, that we care about democracy, we 
care about human rights, but especially that we care about 
education.
    When you press Kyrgyz when they say you really don't care 
about anything in the base and you press them, is that really 
true, frequently they will sort of grudgingly say, oh, well, of 
course we recognize you did do all these things in the 
education sector; there is the American University that was set 
up, there was support for secondary education, there was 
English language training, there were scholarships.
    Frankly, the best invested money we put into Kyrgyzstan 
easily has been in the education sector, and it has been the 
basis for popular support in Kyrgyzstan for the broader 
security relationship. It is students from Kyrgyzstan who go to 
high schools in the United States, who go to colleges, who get 
masters degrees. Those are the people who say this isn't a bad 
idea; we need to sustain that relationship. We need to learn 
that lesson and we need to continue that investment.
    Mr. Patten. I would put forth that Kyrgyzstan is the only 
country in the region where there has been regime change since 
independence. You could argue that in Turkmenistan, 
Turkmenbashi died and he was succeeded by his doctor, but it is 
essentially the same thing. There have now been two rounds of 
regime change in Kyrgyzstan, and the second round has been more 
violent than the first.
    So I think our strategic interest is in institutionalizing 
a way for regime change according to a democratic procedure in 
Central Asia that will serve as a model for the other 
countries, because this is the looming question for Uzbekistan, 
for Kazakhstan, for the other countries: how does succession 
happen, and I think Kyrgyzstan presents an excellent 
opportunity to look at better models for succession, and that 
could really be America's legacy in the region. As Dr. Cooley 
said, it is really a question of having the American brand be 
one of values, and that is what the people of Central Asia are 
looking toward.
    Mr. Tierney. Thank you very much.
    Mr. Fortenberry, you are recognized for 5 minutes.
    Mr. Fortenberry. Thank you, Mr. Chairman, and thank you all 
for coming today. I am sorry I have missed the balance of your 
testimony, and I apologize if some of this is a bit repetitive.
    I think, Mr. Ambassador, you may be best suited to answer 
this first question. Culturally speaking, what is the 
disposition of the people of Kyrgyzstan toward the United 
States as we look toward some of what was just discussed here, 
longer-term relationships, empowering governance capacities, 
particularly in terms of peaceful transfers of power and long-
term stability in the country for the well-being of the people, 
but also clearly to secure interests that we have, such as our 
own base?
    Mr. Abdrisaev. According to the poll which was made public 
last year by the IRA, in Kyrgyzstan we have quite a negative 
trend toward the United States. Feelings are not good, and 
probably because of some of the promises which were not 
fulfilled. But partly also this process was inflamed by the 
transfer of the Russian Federation into the policies from the 
regime, which was now changed.
    In general, if we would implement suggestions which my 
colleague just made--education, grassroots level education and 
support more to those forces, which we have already there, 
civil society, NGO's, media--they could start flourish, then we 
will change the tide dramatically and, parallel also, the base 
would continue to exist. It is my opinion that people could 
understand how to balance that together. It is time for us just 
to very, very [indiscernible] and people of Kyrgyzstan would 
understand that clearly.
    I agree also with the opinion of my colleague from Freedom 
House that it is the second change of regime in Kyrgyzstan. 
Unfortunately, we lost the time during 5 years in order to do 
that in an orderly way, and now it is time to show how it is 
possible to do in Central Asia something which, by the way, 
happened quite successfully in Mongolia. Same thing; country, 
small size, but five, six times changes of the regime, and now 
it is a full-fledged democracy. Something we have to look at 
the lessons and to try to work quite actively.
    Mr. Fortenberry. Mongolia, by the way, is a partner country 
with the House Democracy Partnership Commission on which I 
serve, one of the early recipients of this opportunity to be in 
dialog with us on an ongoing basis as to how we build their 
technical capacity in their parliament, their legislature. So 
you are right, that is a good example in the region there.
    Does Russia actively connive at fomenting this anti-
American spirit, or is it just part of the broader organic 
movement in the area at this point in time?
    Mr. Abdrisaev. Russia now is trying to regain its influence 
in the region and in Kyrgyzstan as well, and we have to admit 
that Russia has a legitimate right to be there in that 
territory, and pro-Russian sentiments are quite great.
    I think it is time also for us to see how to work together 
with Russia, and even if Russia was involved in the change of 
the regime, probably it is also a sign that Russia has quite 
high stakes in promoting the regimes which are not so looking 
toward feudalism like previous government or Bakiyev tried to 
create. I have plenty of examples which before Russia and 
United States tried to implement in Central Asia to the 
benefits of the Kyrgyz Republic, so it is time also to find the 
common goals.
    Mr. Fortenberry. Well, somebody made the point that to 
convict the people that it is not necessary to pick a side 
here, but to actively engage in their own well-being by active 
engagement, constructive engagement with the United States, 
constructive engagement with Russia is a potential outcome that 
is beneficial to them particularly, but would also help 
stabilize our relationship, I assume.
    Dr. Cooley, did you want to----
    Mr. Cooley. No, I would just also make the point that ever 
since the apparent double-cross of Bakiyev against Putin last 
year, when Russia offered a $2 billion package of investments 
and assistance to close down the base, the base closure was 
announced and then was walked back, relations between Moscow 
and Bishkek really deteriorated to an all-time low and Russia 
really launched an all-out soft power blitz in the media that 
really undermined the Bakiyev regime, calling him corrupt and 
nepotistic, drawing attention to these aspects of his rule.
    It was an onslaught and it put us in an embarrassing 
position where it was the Kremlin, for its very own cynical 
political purposes, that was drawing attention to these 
governance issues that we were relatively silent on. So Russia, 
through its soft power, through these cultural influences, also 
through the fact that Kyrgyz workers live and work in Russia 
and send home remittances which comprise anywhere from 30 to 40 
percent of Kyrgyz GDP, for all these reasons Kyrgyzstan's 
connections with Russia are quite close, and we need to take 
that into account.
    Mr. Fortenberry. There is a certain irony in what you just 
said, though.
    Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, Mr. Fortenberry.
    Let me thank all of the witnesses for giving up your time 
today and sharing your expertise. You can't get rid of us very 
easily, so I am hoping that you all are available for us to 
call on at some point in the future if we want to take 
advantage of your knowledge and your understanding and your 
expertise.
    So I will take those little nods of your head as assent to 
that, and I appreciate it. You have been a tremendous help to 
us in setting the table for what I think are going to be some 
pretty extensive hearings, and I think you have let us have 
some context to where we ought to go.
    So I want to thank all of you. Ambassador, thank you 
especially through your difficult times that you are 
experiencing. It is our hope that this investigation does serve 
the purpose of lending some transparency and accountability to 
the situation for the United States and for people in 
Kyrgyzstan, and that we just find out what happened, who the 
players were, what they did, and we can then determine whether 
it was good, bad, or indifferent and act accordingly from there 
to make sure that we build a stronger relationship and take a 
good path forward.
    I do want to just say that I note one thing that is a 
common thread on this, that we can't always have just a 
military priority solely and lead with the military, put that 
as our foremost priority, treat it as if it is the only one or 
whatever. We have to have a more whole-of-government approach, 
as somebody mentioned earlier, and reach out diplomatically, as 
well. Rule of law issues, democracy, all those things are 
important, and in that context I think that we may get more 
cooperation out of friends and allies if we show a deeper 
interest and a longer-range interest in their well-being, and 
then that should encompass some of our mutual priorities as 
well.
    So thank you all for being here and for all that you have 
done for this committee. We appreciate it. I thank the members 
of the panel as well.
    Meeting adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
